                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Briefing Report:
                     Improvements Needed in EPA’s
                     Information Security Program
                     Report No. 13-P-0257                    May 13, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                              Rudolph M. Brevard
                                                   Cheryl Reid
                                                   Vincent Campbell
                                                   Neven Soliman
                                                   Albert E. Schmidt
                                                   Rodney Allison
                                                   Nii-Lantei Lamptey
                                                   Kyle Denning




Abbreviations

CERT          Computer Emergency Response Team
EPA           U.S. Environmental Protection Agency
FDCC          Federal Desktop Core Configurations
FISMA         Federal Information Security Management Act
OCSPP         Office of Chemical Safety and Pollution Prevention
OEI           Office of Environmental Information
POA&M         Plan of Action and Milestones
TSCA          Toxic Substances Control Act
USGCB         U.S. Government Configuration Baseline




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0257
                                                                                                           May 13, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Briefing Report: Improvements Needed in
The U.S. Environmental              EPA’s Information Security Program
Protection Agency’s (EPA’s)
Office of Inspector General          What We Found
(OIG) prepared this
supplemental report to              We found weaknesses in the following Agency programs regarding its
document the details, and           information security program and practices:
make recommendations, for
weaknesses the OIG identified              Continuous monitoring management
during its review of the                   Configuration management
Agency’s information security              Risk management
program and practices. That                Plan of action and milestones
review was conducted as
                                           Contractor systems
required by the Federal
Information Security
                                    This supplemental report to our previously issued report, Fiscal Year 2012
Management Act (FISMA),
                                    Federal Information Security Management Act Report: Status of EPA's Computer
which requires inspectors
                                    Security Program (Report No. 13-P-0032), issued October 26, 2012, provides
general to prepare an annual
                                    additional detailed information for the above weaknesses.
evaluation of their agencies’
information security programs
and practices. The Department        Recommendations and Planned Agency Corrective Actions
of Homeland Security issued
reporting guidelines                We recommend that the Assistant Administrator for Environmental Information
documenting 11 FISMA                implement the continuous monitoring activities as specified in the Agency’s
reporting metrics to be             Continuous Monitoring Strategic Plan, document the remediation of
evaluated as part of the fiscal     configuration-related vulnerabilities, and implement a strategic plan for EPA’s risk
year 2012 FISMA audit.              management framework.

This report addresses the           The Agency concurred with the report’s recommendations and provided high-
following EPA Goal or               level planned corrective actions with completion dates. The Agency needs to
Cross-Cutting Strategy:             provide a completion date for one planned corrective action and additional
                                    information on how the EPA will verify that offices remediate identified
  Strengthen EPA’s                 weaknesses.
   Workforce and Capabilities.       Noteworthy Achievements

                                    The Office of Environmental Information has developed a strategic plan for
                                    continuous monitoring, approved the risk management framework, and created a
For further information, contact
our Office of Congressional and     Risk Executive Group tasked with developing an Agency-wide risk management
Public Affairs at (202) 566-2391.   strategy.

The full report is at:
www.epa.gov/oig/reports/2013/
20130513-13-P-0257.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                             THE INSPECTOR GENERAL




                                            May 13, 2013

MEMORANDUM

SUBJECT:      Briefing Report: Improvements Needed in EPA’s Information Security Program
              Report No. 13-P-0257

FROM:         Arthur A. Elkins Jr.

TO:	          Malcolm D. Jackson, Assistant Administrator and Chief Information Officer
              Office of Environmental Information

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion
of the OIG and does not necessarily represent the EPA position. The Agency concurred with the
report’s recommendations and provided high-level planned corrective actions with completion dates.
However, the Agency needs to provide a completion date for one planned corrective action and revise
another planned corrective action to fully address the report’s recommendation. Therefore, the
responses to those two recommendations are considered unresolved. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for all
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
Acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.rich@epa.gov; or
Rudolph M. Brevard, Director, Information Resources Management Audits, at (202) 566-0893 or
brevard.rudy@epa.gov.
Improvements Needed in EPA’s 

Information Security Program




       Results of Review




              13-P-0257          1
Purpose

The Federal Information Security Management Act (FISMA)
requires inspectors general to perform an annual evaluation of their
agencies’ information security programs and practices. We found
information security weaknesses during our fiscal year 2012 FISMA
audit of the U.S. Environmental Protection Agency (EPA). This
briefing report provides the details for the weaknesses found during
the FISMA audit.




                               13-P-0257                               2
Scope and Methodology 

This is a supplemental draft report based on the fiscal year 2012
FISMA audit. We conducted the FISMA audit work at EPA
headquarters in Washington, D.C.; the National Computer Center,
Research Triangle Park, North Carolina; and all 10 regions. This
audit was conducted from February 2012 through November 2012.
W conducted
We       d     d this
                  hi audit
                       di iin accordance
                                    d       with
                                             i h generally
                                                       ll acceptedd
government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence
to provid
        ide a reasonable
                      bl basis i for our findi
                                            dings and
                                                    dconc lusiions
based on our review objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and
concllusions.
         i




                                13-P-0257                               3
Scope and Methodology (Cont.)

We reviewed federal regulations and EPA policies and procedures.
Our audit procedures included inquiries of appropriate personnel
                                                       personnel,
inspections of documents and records, and observations of EPA’s
operations. We also conducted limited tests of selected information
system security controls.
                controls




                                13-P-0257                             4
Scope and Methodology (Cont.)

For fiscal year 2012, we conducted an overall assessment for the
following 11 FISMA metrics:
    1. Continuous monitoring management
    2. Configuration management
    3. Identityyand access mana gement
    4. Incident response and reporting
    5. Risk management
    6. Securitity traiiniing
    7. Plan of action and milestones
    8. Remote access manag        gement
    9. Contingency planning
  10. Contractor systems

  11. Security capital planning

  11                        planning

                              13-P-0257                            5
Continuous Monitoring 

Management
In June 2012 EPA developed the Continuous Monitoring Strategic
Plan. However, the Agency continues working toward implementing
the plan’s continuous monitoring that includes ongoing assessments
of security controls
            controls.


Recommendations
We recommend that the Assistant Administrator for Environmental
Information:

1.	 Implement the continuous monitoring activities as specified in
    the Agency
    the	 Agency’s
                s Continuous Monitoring Strategic Plan.

                               13-P-0257                             6
Continuous Monitoring 

Management (Cont.)
Agency Response and OIG Evaluation
The Ag
     gencyy concurs with the recommendation and provided a
planned corrective action, but the Agency did not provide a planned
completion date. The OIG considers the Agency’s response
unresolved until a comppletion date has been established.




                               13-P-0257                              7
Configuration Management

   EPA is not assessing baseline compliance for EPA's firewalls,
    routers, and Web server software.

   EPA did not have a process for timely remediation of
    configuration compliance scans.
                             scans

   EPA did not fully implement Federal Desktop Core
    Configurations/U.S. Government Configuration Baseline
    (FDCC/USGCB) secure configuration settings for 4 out of 15
    workstations selected for testing.

   EPA does not have a specified, documented timeline to correct
    de a o s from
    deviations o base
                  baseline
                         e co
                           configurations.
                                gu a o s

                                13-P-0257                           8
Configuration Management (Cont.)

   EPA did not ensure that unauthorized firewall rule modifications
    occurred.
    occurred

   EPA has configuration management policies and procedures.
    H
    However,    tthe
                  h proced   dures did nott provid
                                                ide guidance
                                                      id     as tto what
                                                                       h t the
                                                                           th
    program offices and regions should classify as configuration items
    (i.e., hardware, software, firmware) for information systems, and
    did nott provide
                   id a titimeline
                               li off th
                                      the system’s
                                              t ’ d development
                                                         l     t lif
                                                                  life cycle.
                                                                           l




                                     13-P-0257                                   9
Recommendations

We recommend that the Assistant Administrator for Environmental
Information:

2.	 Assess baseline compliance for EPA’s firewalls, routers, and
    Web servers software.

3.	 Update the configuration management process to verify
    program offices remediate FDCC/USGCB deviations in a timely
    manner.
    manner

4.	 Perform regular reviews of firewall rules to ensure no
    unauthorized changes were made.
                                 made




                                13-P-0257                          10
Recommendations (Cont.)

5.	 Update configuration management procedures to define what
    the program offices and regions should classify as configuration
    items for information systems, and define when during the
    system development life cycle the configurable items are to be
    placed under configuration management.

Agency Response and OIG Evaluation
The Agency concurs with the recommendations and provided
planned corrective actions and completion dates, but the
planned action does not fully address recommendation 3. The
planned action does not include a verification procedure to confirm
that program offices actually remediate FDCC/USGCB deviations in
a timely manner.



                               13-P-0257                           11
Risk Management

   Senior EPA officials throughout the Agency are currently not
    briefed on:

       Mission/business-specific risks and organizational level
        (strategic) risks
                    risks.
       Threat activity described in U.S. Computer Emergency
        Response Team’s (CERT’s) cyber-security threat reports.

   Although the risk management framework has been approved,
    the strategic plan needs to be implemented (e.g., the strategic
    pllan cit
           ites ““securit
                       ity conttrolls need
                                         d tto be impllementted
                                                              d and
                                                                  d 

    verified”). 




                                  13-P-0257                             12
Risk Management (Cont.)
   EPA has recently approved the establishment of a Risk
    Executive Group. However, the group needs to:
       Define the core mission and business processes for the
        organization (including any derivative or related missions and
        business processes carried out by subordinate organizations).
       Define both the types of information that the organization
        needs in order to successfully execute the stated missions
        and business processes and the internal and external
        information flows.
       Specify the degree of autonomy for subordinate organizations
        (i.e., organizations within the parent organization) that the
        parent organization permits for assessing, evaluating,
        mitigating, accepting, and monitoring risk.

                                 13-P-0257                           13
Risk Management (Cont.)

    Specify the types and extent of risk mitigation measures the
     organization plans to employ to address identified risks
                                                        risks.
    Specify how the organization plans to monitor risk on an
     ongoing basis given the inevitable changes to organizational
     i f
     information
            ti systems
                    t    andd th
                              their
                                 i environments
                                       i      t off operation.
                                                          ti
    Specify the degree and type of oversight the organization
     plans to use to ensure that the risk manag
     p
                                       gement strategy
                                                            gyis
     being effectively carried out.





                               13-P-0257                            14
Recommendations

We recommend that the Assistant Administrator for Environmental
Information:

6.	 Brief senior EPA officials throughout the Agency on information
    system specific risks (tactical)
                          (tactical), mission/business specific risks
    and organizational level (strategic) risks, and threat activity
    described in U.S. CERT cyber-security threat reports.

7.	 Implement a strategic plan for EPA’s risk management
    framework.




                                13-P-0257                           15
Recommendations (Cont.)

8. Work with the Risk Executive Group to:

   a. Define the core mission and business processes for the
      organization (including any derivative or related missions and
      business processes carried out by subordinate
                                             subordinate

      organizations).

   b. Identify the types of information that the organization needs
      in order to successfully execute the stated missions and
      business processes.
   c. Specify the degree of autonomy for subordinate 

      organiizatitions th
                       thatt the
                             th parentt organiization
                                                 ti permitits for

      assessing, evaluating, mitigating, accepting, and monitoring
      risk.


                               13-P-0257                           16
Recommendations (Cont.)

   d. Specify the types and extent of risk mitigation measures the
       organization plans to employ to address identified risks
                                                          risks.
   e.	 Specify how the organization plans to monitor risk on an
       ongoing basis given the inevitable changes to organizational
       information systems and their environments of operation
                                                       operation.

Agency Response and OIG Evaluation
The Agency concurs with the recommendations and provided
planned corrective action with completion dates for each
recommendation. The OIG concurs with the planned actions.




                               13-P-0257                              17
Plan of Action and Milestones

EPA does not have plan of action and milestones (POA&M)
procedures or processes that provide assurance that the
weaknesses identified have been corrected by the planned
remediation.


Recommend
        dation
           i
We recommend that the Assistant Administrator for Environmental
Information:

9.   Implement POA&M procedures to verify that weaknesses
     identified in POA&Ms are corrected by the planned remediation.




                               13-P-0257                          18
Plan of Action and Milestones 

(Cont.)
Agency Response and
                  d OIG Eval
                        E luation
                              i
The Agency concurs with the recommendation and provided a
planned corrective action with a completion date. The OIG
concurs with the planned action.




                             13-P-0257                      19
Contractor Systems
The Office of Chemical Safety and Pollution Prevention (OCSPP)
did not complete the required annual assessment of security
controls for the Toxic Substances Control Act (TSCA) Online
system. As of August 2012, OCSPP had assessed only 1.35% of
the security controls.

OCSPP personnel stated that in August 2010 they submitted a
request to the Office of Environmental Information (OEI) to have the
system removed from Office of Management and Budget reporting.
OCSPP personnel stated that even though the OEI did not provide
a formal response, they were under the impression that their
request was granted when advised to add tasks in the EPA’s
Automated System Security Evaluation and Remediation Tracking
system to close out the system.


                               13-P-0257                           20
Contractor Systems (Cont.)

OCSPP personnel stated that they have not completed an
assessment of security controls on the system since August 2010.
OCSPP personnel stated that in March 2012 OEI informed them
that the system could not be removed. OCSPP informed the OIG
that contractor services have been obtained to perform a risk
assessment and  d certification
                      ifi i and d accreditation
                                       di i ffor the
                                                   h system.


Recommendation
We recommend that the Assistant Administrator for Environmental
I f
Information:
       ti

10. Verify that OCSPP completed an assessment of security
    controls for the TSC
                      SCA Online
                          O      system.

                              13-P-0257                            21
Contractor Systems (Cont.)

Agency Response and OIG Evaluation

The Agency concurs with the recommendation and provided a
planned corrective action with a completion date. The OIG
concurs with the planned action.




                             13-P-0257                      22
                             Status of Recommendations and
                               Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                 Planned
 Rec.   Page                                                                                                    Completion   Claimed    Agreed-To
 No.     No.                         Subject                            Status1        Action Official             Date      Amount      Amount

  1      6     Implement the continuous monitoring activities as          U       Assistant Administrator for
               specified in the Agency’s Continuous Monitoring                    Environmental Information
               Strategic Plan.

  2      10    Assess baseline compliance for EPA’s firewalls,            O       Assistant Administrator for   09/30/2013
               routers, and Web servers software.                                 Environmental Information

  3      10    Update the configuration management process to             U       Assistant Administrator for
               verify program offices remediate FDCC/USGCB                        Environmental Information
               deviations in a timely manner.

  4      10    Perform regular reviews of firewall rules to ensure        O       Assistant Administrator for   09/30/2013
               no unauthorized changes were made.                                 Environmental Information

  5      11    Update configuration management procedures to              O       Assistant Administrator for   06/28/2013
               define what the program offices and regions should                 Environmental Information
               classify as configuration items for information
               systems, and define when during the system
               development life cycle the configurable items are to
               be placed under configuration management.

  6      15    Brief senior EPA officials throughout the Agency on        O       Assistant Administrator for   06/30/2103
               information system specific risks (tactical),                      Environmental Information
               mission/business specific risks and organizational
               level (strategic) risks, and threat activity described
               in U.S. CERT cyber-security threat reports.

  7      15    Implement a strategic plan for EPA’s risk                  O       Assistant Administrator for   12/31/2013
               management framework.                                              Environmental Information

  8      16    Work with the Risk Executive Group to:                     O       Assistant Administrator for   12/31/2013
                                                                                  Environmental Information

         16      a. Define the core mission and business
                    processes for the organization (including any
                    derivative or related missions and business
                    processes carried out by subordinate
                    organizations).

         16      b. Identify the types of information that the
                    organization needs in order to successfully
                    execute the stated missions and business
                    processes.

         16      c. Specify the degree of autonomy for
                    subordinate organizations that the parent
                    organization permits for assessing,
                    evaluating, mitigating, accepting, and
                    monitoring risk.

         17      d. Specify the types and extent of risk mitigation
                    measures the organization plans to employ
                    to address identified risks.




13-P-0257                                                                                                                                           23
                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1        Action Official             Date      Amount      Amount

              17      e. Specify how the organization plans to
                         monitor risk on an ongoing basis given the
                         inevitable changes to organizational
                         information systems and their environments
                         of operation.

     9        18    Implement POA&M procedures to verify that               O    Assistant Administrator for   06/30/2013
                    weaknesses identified in POA&Ms are corrected by             Environmental Information
                    the planned remediation.

    10        21    Verify that OCSPP personnel complete an                 O    Assistant Administrator for   09/06/2013
                    assessment of security controls for the TSCA                 Environmental Information
                    Online system.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0257                                                                                                                                     24
                                                                                    Appendix A

                  Agency Response to Draft Report



                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                  WASHINGTON, D.C. 20460


                                                                          OFFICE OF
                                                                  ENVIRONMENTAL INFORMATION

                                            4/19/2013

 MEMORANDUM

 SUBJECT:	 Response to Office of Inspector General Draft Report No. OMS-FY12-0003
           “Briefing Report: Improvements Needed in EPA’s Information Security
           Program,” dated March 6, 2013

 FROM:	         Malcolm D. Jackson
                Assistant Administrator and Chief Information Officer

 TO:	           Arthur A. Elkins, Jr.
                Inspector General

 Thank you for the opportunity to respond to the issues and recommendations in the subject
 audit report. Following is a summary of the agency’s overall position, along with its position
 on each of the report recommendations. For those report recommendations with which the
 agency agrees, we have provided high-level intended corrective actions and estimated
 completion dates.

 AGENCY’S OVERALL POSITION

 Senior Agency Information Security Officer Response
 The report facts are accurate with regard to the areas the Senior Agency Information Security
 Officer (SAISO) has direct insight or access to the underlying information with the following
 exceptions. Under the Risk Management section, the Office of Inspector General (OIG) did not
 define what roles are considered ‘Senior EPA officials’ nor which U.S. Computer Emergency
 Response Team’s (CERT) cyber security threat reports are in scope for these officials. The
 assumption is that the OIG is not stating that all U.S. CERT threat reports should be briefed to
 senior officials since the majority of the reports are technical in nature and too low level to be
 useful for ‘senior officials.’ Also, the assumption is that the OIG did not intend to include
 system administrators, Information Security Officers and other such roles as senior officials to
 whom these technical, low level reports would be appropriate.



13-P-0257                                                                                         25
 EPA defines ‘Senior Officials’ as the Deputy Administrator, Chief Information Officer (CIO),
 and Deputy CIO. These roles receive threat briefs at a level appropriate for senior officials
 that enable them to manage strategic risks. EPA Authorizing Officials – those roles accepting
 risk at the system and mission level – receive appropriate mission and system level risk briefs
 through the system authorization process. Information Security Officers (ISOs) periodically
 receive U.S. CERT threat briefs as well as threat briefs from the EPA CSIRC. The ISOs and
 others in EPA also have available to them daily threat reports provided by a U.S. CERT
 source provider. Given the defined scopes of senior officials and threat briefs above, the
 SAISO believes the agency is complying with recommendations 6 through 10.

 Office of Environmental Information, Office of Technology Operations and Planning Response
 The Office of Technology Operations and Planning (OTOP) agrees with the Office of
 Inspector General’s (OIG) recommendations affecting resources under OTOP’s purview and
 have provided high-level intended corrective actions and estimated completion dates for
 recommendations 1 through 5.

  AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

 Agreements
 No.     Recommendation                             High-Level Intended      Estimated
                                                    Corrective Action(s)     Completion by
                                                                             Quarter and FY
 1          Implement the continuous                OTOP is responsible      TBD
            monitoring activities as specified in   for implementing the
            the Agency’s Continues Strategic        Continuous
            Plan.                                   Monitoring (CM)
                                                    activities in the
                                                    Agency’s CM
                                                    Strategic Plan. A high
                                                    level gap analysis has
                                                    been performed and
                                                    OTOP management is
                                                    reviewing the findings
                                                    for further action to
                                                    include task
                                                    designation among the




13-P-0257                                                                                      26
 2          Assess baseline compliance for        OTOP/NCC will:             FY13 QTR 4
            EPA’s firewalls, routers, and web       Procure 3rd              (September 30, 2013)
            server’s software.                      party
                                                    independent
                                                    assessment to
                                                    formally review
                                                    baseline.
                                                    Add NIST 800-
                                                    53 control, CM-
                                                    02 as point of
                                                    emphasis during
                                                    future risk
                                                    assessments.
 3          Update the configuration              OTOP/EDSD, with            FY13 QTR 4
            management process to verify          input from the SAISO,      (September 6, 2013)
            program offices remediate             will provide training
            FDCC/USGCB deviations in a            and procedures for the
            timely manner.                        Tivoli Endpoint
                                                  Administrators to run
                                                  compliance reports that
                                                  will show
                                                  FDCC/USGCB
                                                  deviations for their
                                                  respective program or
                                                  regional office.
 4          Perform regular reviews of firewall   OTOP/NCC will              FY13 QTR 4
            rules to ensure no unauthorized       review and recommend       (September 30, 2013)
            changes were made.                    a practical solution for
                                                  firewall rule reviews
                                                  and integrity
                                                  correlations. The
                                                  implementation
                                                  schedule will be
                                                  assessed and
                                                  determined based on
                                                  approved solution and
                                                  resource constraints.
 5          Update configuration management       OTOP will:                 FY13 QTR 3 (April 15,
            procedures to define what the          Identify standard         2013)
            program offices and regions should     guidance for
            classify as configuration items for    identifying IT
            information systems, and define        configuration
            when during the system                 items based on
            development life cycle the             best practices.
            configurable items are to be placed
            under configuration management.        OTOP will update          FY13 QTR 3 (June 28,
                                                   the Configuration         2013)
                                                   Management
                                                   procedure.




13-P-0257                                                                                     27
 6          Brief senior EPA officials               The SAISO concurs    FY13 QTR 3 (June 30,
            throughout the Agency on                 with the following   2013)
            information system specific risks        recommendations
            (tactical), mission/business specific    and plans to take
            risks and organizational level           stated actions
            (strategic) risks, and threat activity
            described in U.S. CERT cyber-
            security threat reports.
 7          Implement a strategic plan for        The CIO’s office will   FY14 QTR 1
            EPA’s risk management framework.      finalize and begin      (December 31, 2013)
                                                  implementing a
                                                  Risk Managment
                                                  Strategic Plan by
                                                  the end of Q1FY14
 8          Work with the Risk Executive          The CIO’s office will   FY14 QTR 1
            Group to:                             finalize and begin      (December 31, 2013)
            a. Define the core mission and        implementing a Risk
               business processes for the         Managment Strategic
               organization (including any        Plan by the end of
               derivative or related missions     Q1FY14. This work
               and business processes carried     will be accomplished
               out by subordinate                 in the development
               organizations).                    and implementation
            b. Identify the types of information of the Risk
               that the organization needs in     Management
               order to successfully execute the Strategic Plan.
               stated missions and business
               processes.
               c. Specify the degree of
               autonomy for subordinate
               organizations that the parent
               organization permits for
               assessing, evaluating, mitigating,
               accepting, and monitoring risk.
            d. Specify the types and extent of
               risk mitigation measures the
               organization plans to employ to
               address identified risks.
            e. Specify how the organization
               plans to monitor risk on an
               ongoing basis given the
               inevitable changes to
               organizational information
               systems and their environments
               of operation.




13-P-0257                                                                                  28
 9          Implement POA&M procedures to          The SAISO will          FY13 QTR 3 (June 30,
            verify that weaknesses identified in   implement a Plans of    2013)
            POA&Ms are corrected by the            Actions and
            planned remediation.                   Milestones
                                                   (POA&M) validation
                                                   and monitoring
                                                   process in Q3FY13.
 10         Verify that OCSPP completed an         The SAISO will verify   FY13 QTR 4
            assessment of security controls for    OCSSP has completed     (September 6, 2013)
            the TSCA Online system.                security controls
                                                   assessment on TSCA
                                                   Online by the end of
                                                   Q4FY13.


  If you have any questions or concerns about this response, please feel free to contact
  Tom Tracy, Acting Director of the Policy, Outreach and Communications Staff, at
  (202) 564-6518 or Scott Dockum the OEI Audit Follow-up Coordinator at (202) 566-1914.

  cc:
        Robert McKinney
        Anne Mangiafico
        Brenda Young
        Thomas Tracy
        Scott Dockum




13-P-0257                                                                                   29
                                                                                Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Senior Agency Information Security Officer
Director, Office of Technology Operations and Planning, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Technology Operations and Planning,
       Office of Environmental Information




13-P-0257                                                                                     30
